No. 20-6199

IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER TERM 2020

JACOB TOWNLEY HERNANDEZ,
Petitioner,
vs.
SUZANNE M. PEERY, Warden,
Respondent.

ON PETITION FOR WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE NINTH CIRCUIT

REPLY TO OPPOSITION

Marc J. Zilversmit (Cal. Bar. No. 132057)
Attorney At Law
28 Boardman Place
San Francisco, CA 94102
(415) 431-3474
marc @ zdefender.com
Counsel of Record for
Petitioner Jacob Townley Hernandez

TABLE OF CONTENTS
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
Introduction and Summary of Argument . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
REASONS FOR GRANTING THE WRIT. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
I.

This Court Should Grant Certiorari Because Respondent Does not Dispute
the Need to Settle a Split Between the Ninth Circuit’s Holding Below and
that of the Fifth and Seventh Circuits. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

II.

This Court Should Grant Certiorari where a Threshold Inquiry
Demonstrates that the California Supreme Court’s Decision is not Only
Debatable, but Contrary to Every Other Court Decision Applying Perry to
Trial Court Orders Imposing Lengthy Limits on Discussion Between Counsel
and the Defendant During Trial. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

i

TABLE OF AUTHORITIES
CASES
Buck v. Davis, — U.S. —, 137 S.Ct. 759 (2017) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Carey v. Musladin, 549 U.S. 70 (2006) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4, 5
Commonwealth v. Diaz, 226 A.3d 995, 1008-11 (Pa. Supreme Court 2020) . . . . . . . 8
Geders v. United States, 425 U.S. 80 (1976) . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
Jones v. Basinger, 635 F.3d 1030 (7th Cir. 2011) . . . . . . . . . . . . . . . . . . 3, 8, 9, 10, 11
Jordan v. Fisher, 576 U.S. 1071, 135 S.Ct. 2647, 192 L.Ed.2d 948 (2015)
(Sotomayor, Ginsburg, & Kagan, JJ., dissenting from denial of cert.). . . . . . . 3, 8
Lockyer v. Andrade, 538 U.S. 63 (2003) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
Miller-El v. Cockrell, 537 U.S. 322 (2003) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3, 10
Mudd v. United States, 798 F.2d 1509 (D.C. Cir. 1986) . . . . . . . . . . . . . . . . . . . . . . . 8
Panetti v. Quarterman, 551 U.S. 930 (2007) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
Perry v. Leeke, 488 U.S. 272 (1989) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
Rhoades v. Davis, 852 F.3d 422 (5th Cir. 2017) . . . . . . . . . . . . . . . . . . . 3, 8, 9, 10, 11
Seminole Tribe of Florida v. Florida, 517 U.S. 44 (1996). . . . . . . . . . . . . . . . . . . . . . 6
Slack v. McDaniel, 529 U.S. 473 (2000) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
United States v. Cronic, 466 U.S. 648 (1984) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
White v. Woodhall, 572 U.S. 415 (2014) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
FEDERAL STATUTES
28 U.S.C. § 2253 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1, 4, 9, 10, 11
28 U.S.C. § 2254 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1, 3, 4, 5, 10

ii

Introduction and Summary of Argument
Petitioner in this case only seeks the modest relief of an issuance of a
Certificate of Appealability (“COA” ).
Respondent’s opposition does not dispute that the Ninth Circuit’s decision
here conflicts with holdings of the Fifth and Seventh Circuits on whether a COA
should issue when the state courts have been divided on the merits of a
constitutional claim. Respondent does not dispute that had this case arose in the
Fifth or Seventh Circuit, the court would have been bound by precedent to grant
relief where, as here, three Justices of the state appellate court unanimously found
that Petitioner’s constitutional claim had merit.
Rather, Respondent primarily contends that the Fifth and Seventh Circuits
(and the three justices of this Court that cited those cases) are wrong. But,
Respondent’s argument is wholly contrary to the words of the statute. Respondent
contends that a debate among state judges on the merits of the constitutional claim
does not demonstrate a reasonable disagreement on whether a petitioner can
succeed in meeting the federal habeas deference standard included in 28 U.S.C.
§ 2254(d)(1) of the Anti-Terrorism Effective Death Penalty Act (“AEDPA”). But 28
U.S.C. § 2253(c)(2) contains no such requirement. Respondent would improperly
invent an additional hurdle to obtaining a COA not contained in § 2253(c)(2).
Moreover, Respondent does not dispute that there is a split between the
circuits on this issue. Because Respondent also does not dispute that Petitioner’s
case presents a good vehicle for resolving this split, Respondent cannot dispute that
the issue should be resolved by this Court. See Supreme Court Rule 10(a).
Nor does Respondent anywhere dispute that the California Supreme Court’s
decision in this case is the only published case to disagree that the holdings of
Geders v. United States, 425 U.S. 80 (1976) and Perry v. Leeke, 488 U.S. 272 (1989)
together clearly establish that a lengthy ban on a defendant’s absolute right to

consult with counsel about important trial-related matters during trial is structural
error. Because a threshold inquiry indicates that the California Supreme Court’s
decision below conflicts with every other Circuit and state court decision on this
issue, the Petition should be granted per Supreme Court Rules 10(b), and (c).
In short, Petitioner has demonstrated a substantial showing of a denial of a
constitutional right, and has raised an issue likely to succeed on the merits and
that is at least a debatable issue worthy of further consideration. Petitioner would
have been granted a COA in the Fifth and Seventh Circuits.
This Court should either grant review and set the case for briefing and
argument, or grant review and summarily order that a COA issue.
REASONS FOR GRANTING THE WRIT
Much of the case remains undisputed. Respondent does not dispute that the
trial court’s order precluded counsel from discussing with the defendant, his
investigator or anyone else, the existence or contents of declarations executed by his
former codefendants. Opposition [“Opp.”] 2-3. Respondent attempts to refer to the
declaration as “one document” or one topic. Opp. i, 5. But Respondent does not
dispute that the state prosecutor described the declaration as the state’s “theory of
the case.” Nor does Respondent dispute that Flores was a critical witness and an
alleged accomplice, or that the declaration contained details not found in other
discovery. Respondent does not dispute that Flores’s declaration and testimony was
the only evidence that identified Petitioner as one of the three attackers of the
victim. Nor does Respondent dispute that the eyewitness descriptions of the three
attackers were inconsistent with Petitioner’s appearance and language. See
Appendix [“App.”] 101, 122 & n.10.
Respondent does not dispute that the unjustified gag order lasted throughout
the entire trial, covered a host of trial-related matters, and effectively prevented
2

discussion of the state’s theory of the case. Further, Respondent does not dispute
the trial court’s order “unjustifiably interfered with appellant’s access to counsel,”
as the state appellate courts have found. (Appendix 50, 59 & n.2).
I.

This Court Should Grant Certiorari Because Respondent Does not
Dispute the Need to Settle a Split Between the Ninth Circuit’s
Holding Below and that of the Fifth and Seventh Circuits.
Respondent acknowledges that to obtain a COA, a petitioner must show only

“that reasonable jurists could debate whether (or, for that matter, agree that) the
petition should have been resolved in a different manner or that the issues
presented were adequate to deserve encouragement to proceed further.” Slack v.
McDaniel, 529 U.S. 473, 484 (2000) (internal quotation marks omitted). Satisfying
that standard, “does not require a showing that the appeal will succeed.” Miller-El
v. Cockrell, 537 U.S. 322, 337 (2003).
Respondent’s argument, rather, disputes the central premise of the Fifth and
Seventh Circuit holdings in Jones v. Basinger, 635 F.3d 1030, 1040 (7th Cir. 2011)
and Rhoades v. Davis, 852 F.3d 422, 429 (5th Cir. 2017), that was cited by three
members of this Court in Jordan v. Fisher, 576 U.S. 1071, 135 S.Ct. 2647, 2651
(2015) (Sotomayor, Ginsburg, & Kagan, JJ., dissenting from denial of certiorari).
That is, Respondent disputes that actual disagreement between state court judges
on the merits of the constitutional question ordinarily demonstrates that the issue
is debatable issue, and that a COA should ordinarily issue. See Rhoades, 852 F.3d
at 429; Jones, 635 F.3d at 1040. Respondent suggests that these Circuits do not
sufficiently take into account the requirement that a habeas petition must show
that a state court decision was “contrary to, or involved an unreasonable application
of, clearly established Federal law, as determined by” this Court. 28 U.S.C.
§ 2254(d)(1); see Opp. 11-18. But even if Respondent were correct (and it is not), the
Opposition supports the need for this Court’s review to resolve the split between the
3

Ninth Circuit’s rejection of the Fifth and Seventh Circuit holdings. See Supreme
Court Rule 10(a).
Moreover, Respondent is simply incorrect. First, this claim is contrary to the
plain language of § 2253(c)(2). Section 2253, which sets forth the requirements for
a COA, limits issuance of a COA “only if the applicant has made a substantial
showing of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2). The statute
contains no language requiring or authorizing a federal court to consider whether a
petitioner can additionally make a substantial showing that the constitutional
claim is contrary to, or an unreasonable application of clearly established law per
§ 2254(d)(1). Section 2253(c)(2) is directed solely to the constitutional issue (“denial
of a constitutional right”) and makes no reference to AEDPA deference. Respondent
has thus improperly invented an additional hurdle to the issuance of COA that is
not included in the statute. Without this invented additional roadblock, of course, a
showing that the state courts were divided on the merits of the constitutional claim
ordinarily does demonstrate a substantial showing of the denial of a constitutional
right, as held by the Fifth and Seventh Circuits. Thus, plainly, had Petitioner filed
his writ in either Circuit, a COA would have issued.
Second, even if Respondent were correct and a COA also required petitioners
to make a substantial showing that their constitutional claim is debatable under
the deferential standard of § 2254(d)(1), a showing that the state courts reached
opposite conclusions on the constitutional claim, nonetheless ordinarily shows that
the claim is debatable and deserves a COA. This is particularly true here where
three Justices of the appellate court unanimously found that claim was controlled
by clear Supreme Court precedents.
As Respondent points out, clearly established federal law, per § 2254(d)(1)
refers to the holdings of this Court, rather than dicta. Carey v. Musladin, 549 U.S.
4

70, 74 (2006). But “‘clearly established Federal law’ under § 2254(d)(1) is the
governing legal principle or principles set forth by the Supreme Court at the time
the state court renders its decision.” Lockyer v. Andrade, 538 U.S. 63, 71-72 (2003)
(emphasis added). In short, § 2254(d)(1) does not require an “‘identical factual
pattern before a legal rule must be applied.’” White v. Woodhall, 572 U.S. 415, 427
(2014), quoting Panetti v. Quarterman, 551 U.S. 930, 953 (2007). Thus, in Carey,
the Court held that its prior holdings in two cases had clearly established a legal
principle that was not limited to the particular facts of either case. Id. at 72, 74; see
id. at 79 (Stevens, J., concurring).
Similarly here, Geders and Perry clearly establish governing legal principles.
Respondent agrees that in Geders, this Court held that an order precluding counsel
from discussing anything with the defendant during a 17-hour, overnight recess
required reversal without a showing of prejudice. Opp. at 14, citing Geders, 425
U.S. at 91. Respondent also agrees that Perry held both that the error in Geders
was structural, and that a prohibition on consultation during a 15-minute recess
was not comparable to the Geders 17-hour restriction on consultation. Opp. at 1516, citing Perry, 488 U.S. at 274, 280. Further, in Cronic, this Court again made
clear that this Court’s holding in Geders and other cases has made clear that no
showing of prejudice is required “when counsel was ... prevented from assisting the
accused during a critical stage of the proceeding.” United States v. Cronic, 466 U.S.
648, 659 & n. 25 (1984), citing Geders, 425 U.S. 80.
The Perry and Geders holdings read together, moreover, establish the
“governing legal principles” related to restrictions on counsel’s right to consult with
counsel during trial concern the interrelated subject matter and timing of the ban
and the duration. With respect to subject matter and timing, the Perry Court
plainly held that a defendant “has no constitutional right to consult with his lawyer
5

while he is testifying.” Perry, 488 U.S. at 281. But “[h]e has an absolute right to
such consultation before he begins to testify.” Id. (emphasis added). With respect to
duration, Perry made clear that a short (15-minute) ban on consultation did not
violate any constitutional right because the defendant and counsel would not
reasonably need to consult on anything except the defendant’s testimony during
such a short ban. This distinguished the case from the structural error found in
Geders, which was unjustified even if aimed at preventing coaching during
testimony. As Perry described, any ban that interferes with consultation with
counsel about trial related matters, and that lasts at least overnight, would
encompass matters ... the defendant does have a constitutional right to discuss with
his lawyer, such as the availability of other witnesses, trial tactics, or even the
possibility of negotiating a plea bargain.” Id. at 284 (emphasis added). As Perry
further made clear: “It is the defendant’s right to unrestricted access to his lawyer
for advice on a variety of trial-related matters that is controlling in the context of a
long recess.” Id., citing Geders, 425 U.S. at 88 (emphasis added). All of these
points, moreover, were necessary to explaining this Court’s holding.
Thus, according to Perry and Geders, this Court has clearly established that
a defendant has the “absolute right” “to unrestricted access to his lawyer for advice
on a variety of trial-related matters” during trial. Further, although a defendant
may have no right to consult with counsel during his testimony, a court’s
prohibition on consultation during his testimony is also structural error if it lasts at
least overnight, because it would interfere with normal consultation on trial-related
matters.
All of these points, moreover, were necessary to the Court’s result and thus
constitute holdings, not dicta. Seminole Tribe of Florida v. Florida, 517 U.S. 44, 67
(1996). No court (except the California Supreme Court in this case) has found those
6

principles to be unclear, at least when applied to a ban on consultation with counsel
about important trial-related subjects which last longer than an overnight recess.
Respondent does not dispute that the trial court’s ban on consultation about
anything included in the Flores declaration–the state’s theory of the case–prevented
the defendant from obtaining “access to his lawyer for advice on a variety of
trial-related matters.” Perry, 488 U.S. at 284. Further, Respondent does not
dispute that because it lasted throughout the entire trial, the trial court’s ban on
consultation was far longer than Perry or Geders. Moreover, as Respondent
concedes, the ban, like that in Geders was unjustified.
Respondent remarkably contends that no reasonable court could view either
Perry or Geders as holding that “limited topical” restrictions on discussion with
counsel that last throughout the trial are clearly included in the Geders rule. Opp.
15. But, here, the California Court of Appeal made just such a holding. App. 6778. The California appellate court examined Perry and Geders, and particularly
Perry’s statement that “‘[a]ctual or constructive denial of the assistance of counsel
altogether’ [citation], is not subject to the kind of prejudice analysis that is
appropriate in determining whether the quality of a lawyer's performance itself has
been constitutionally ineffective.” App. 76. The appellate court found this to be a
“clear holding” (id. [emphasis added]) and noted that Respondent has cited no
authority suggesting that this Court has retreated from that holding. App. 77. The
appellate court rejected Respondent’s attempt to minimize the ban on consultation
as limited to “one topic,” which did not “alter our conclusion that on this topic—the
written declaration of an accomplice who was a significant witness at trial” fit
within the clear holdings of Perry and Geders and required reversal without a
showing of prejudice. App. 77-78.
The unanimous decision of the three Justices of the California Court of
7

Appeal thus objectively disproves Respondent’s assertion that no reasonable jurist
could make such a decision. Indeed, that is the point of the Fifth and Seventh
Circuit Jones and Rhoads holdings, and the dissenters in Jordan. Ordinarily when
state court judges have in fact disagreed on the merits of a constitutional claim,
their disagreement demonstrates that the issue is debatable among reasonable
jurists and constitutes a substantial showing of a denial of a constitutional right;
thus, the issuance of a COA should ordinarily be routine. Rhoades, 852 F.3d at 429;
Jones, 635 F.3d at 1040; see Jordan, 135 S.Ct. at 2651 (Sotomayor, Ginsburg, &
Kagan, JJ., dissenting from denial of certiorari). Respondent does not dispute that
courts in the Fifth and Seventh Circuits would have been bound by these
precedents to grant him a COA.
Moreover, as seen in the petition, in addition to the three appellate judges
here, dozens of other reasonable jurors, including Justice Scalia (when sitting on
the D.C. Circuit) have agreed that a court’s similar limited topical ban on discussion
of important trial-related matters falls within the holdings of Geders and Perry
where it lasts at least overnight:
... the District Court’s order prohibiting defendant from discussing his
testimony with his attorney during a weekend recess was not significantly
less invasive of sixth amendment rights than the order prohibiting all contact
between a defendant and his attorney during an overnight recess in Geders[.]
I therefore join in the majority’s holdings that a prohibition on
attorney-defendant discussion during substantial recesses, even if limited to
discussion of testimony, violates the sixth amendment and that, like the
similar violation at issue in Geders, it constitutes per se reversible error.
Mudd v. United States, 798 F.2d 1509, 1515 (D.C. Cir. 1986) (Scalia, J., concurring);
see id. at 1512. As cited in the Petition, numerous other courts agree. See Petition
for Certiorari 16-17, citing cases; see also Commonwealth v. Diaz, 226 A.3d 995,
1008-11 (Pa. Supreme Court 2020) [failure to secure interpreter for defendant until
the second day of trial required reversal per se].) By contrast, Respondent cites no
cases that agree with the California Supreme Court’s novel approach finding Geders
8

and Perry insufficiently clear.
The trial court’s gag order here cannot be reasonably swept under the rug as
a minimal or trivial restriction on discussion. Respondent does not dispute that in
this case, the trial court’s ban on discussion of anything included in the Flores
declaration prevented discussion of the state’s theory of the case, and the testimony
of the only witness identifying Petitioner as one of the attackers. Even assuming
that a ban on consultation about a trivial or unimportant document or subject
might fall outside the purview of Geders, banning discussion of the state’s theory of
the case throughout the trial presents no such close question. Indeed, if forced to
choose between an absolute ban on communication lasting for one evening recess, or
a ban on discussing the state’s theory of the case and the testimony of the key
witness throughout trial, one need not speculate to conclude that counsel and
defendants would choose the shorter restriction held to be structural error in
Geders. Clearly, the constitutional violation here was on par with, or worse than
that in Geders.
Because the state courts were divided on the merits of the constitutional
question, the Ninth Circuit should have issued a COA, and its refusal to do so
created a split with the Fifth and Seventh Circuits on this question. Petitioner
plainly would have received a COA had this case arisen in the Fifth and Seventh
Circuits based upon Jones and Rhoads. The Court should grant review to resolve
this split.
Respondent’s contention that Jones and Rhoads are inapposite and wrongly
decided does not resolve the split. Moreover, Respondent’s argument improperly
invents a new barrier to the issuance of a COA that does not appear in § 2253(c)(2).
Respondent argues that Jones is not on point because it involved a Confrontation
Clause violation where the standard is purportedly clearer. Opp. 17. But, as seen
9

above, numerous courts (including the California Court of Appeal) have concluded
that the Geders and Perry cases are sufficiently clear as to require automatic
reversal where a court imposes an unjustified ban on consultation with counsel that
lasts overnight or longer, even when the ban is limited to one important subject.
Respondent’s attempt to distinguish Rhoads, moreover, is even less convincing.
Respondent contends only that the disagreement in the state court was about the
merits of the constitutional issue without the additional burden to federal habeas
relief set forth in § 2254(d)(1). Opp. 17-18. Respondent also contends that the
Jones and Rhoads standard conflicts with Miller-El’s statement that the COA
requirement is intended to provide differential treatment between appeals
deserving attention and those that do not. Opp. at 18, citing Miller-El, 537 U.S. at
337. But, rather, as shown above, it is Respondent’s interpretation of the COA
requirement that plainly conflicts with the language of § 2253(c)(2), and invents an
additional hurdle to issuance of COA that is not included in the statute. In any
case, a division and debate among the state courts on a petitioner’s constitutional
claim is nonetheless a good indication that the federal habeas appeal raises at least
a debatable issue under clearly established law, and thus deserves attention.
Moreover, Respondent’s contentions do not resolve the split among the
Circuits on this point. Further, Respondent makes no claim that Petitioner’s case is
a bad vehicle for resolving this split. Respondent does not dispute that Petitioner’s
case would merit a COA under the holdings in Jones and Rhoads. Thus, this Court
should grant certiorari per Rule 10(a).
In sum, the state court of appeal in Petitioner’s case and numerous Circuit
and lower court cases have found that Geders and Perry clearly establish that a
trial court’s lengthy ban on consultation with counsel about trial related matters
require reversal without a showing of prejudice–at least when the ban concerns
10

important subject matter. Petitioner has shown that the issue is at least debatable
among reasonable jurists. A COA would issue under Jones and Rhoads in the Fifth
and Seventh Circuits, and should issue for Petitioner here.
This Court should either grant certiorari and set the case for briefing and
argument, or vacate the Ninth Circuit’s order denying a COA and remand with
directions to issue a COA.
II.

This Court Should Grant Certiorari where a Threshold Inquiry
Demonstrates that the California Supreme Court’s Decision is not
Only Debatable, but Contrary to Every Other Court Decision Applying
Perry to Trial Court Orders Imposing Lengthy Limits on Discussion
Between Counsel and the Defendant During Trial.
Petitioner’s second contention is that an appropriate threshold inquiry into

the merits which is required for a COA inquiry (see Buck v. Davis, — U.S. —, 137 S.
Ct. 759, 773 (2017)) indicates that the California Supreme Court’s decision is
contrary to every other court decision applying Geders and Perry to a trial court’s
ban on attorney consultation with a defendant.
Respondent notes that only two of the cases cited by appellant were federal
habeas cases where the court had to consider whether the state court’s ruling was
an unreasonable application of clearly established federal law. But Respondent
does not dispute that the California Supreme Court’s decision here conflicts with
every other case on this point.
The fact that all authority agrees on this point with Petitioner, and that no
authority supports the California Supreme Court’s decision, indicates that
Petitioner has raised at least a debatable issue that the California Supreme Court’s
decision is an unreasonable application of, or contrary to, clearly established federal
law. Moreover, as shown above, Respondent’s interpretation improperly invents an
additional roadblock to issuing a COA that is not contained in § 2253(c)(2).
This Court should grant certiorari, vacate the Ninth Circuit’s order denying a
11

COA, and remand with directions to issue a COA, or set the case for briefing and
argument to settle these important questions.
Dated: March 22, 2021

Respectfully submitted,

__________________________
MARC J. ZILVERSMIT
Counsel of Record for
Petitioner Jacob Townley Hernandez

12

